CASE NO. 20-815

IN THE SUPREME COURT OF THE UNITED STATES

TIMOTHY KING, MARIAN ELLEN SHERIDAN, JOHN
EARL HAGGARD, CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE RUBINGH,
Plaintiffs/Petitioners,
v.
GRETCHEN WHITMER, in her official capacity as Governor
of the State of Michigan, JOCELYN BENSON, in her official
capacity as Michigan Secretary of State and the Michigan
BOARD OF STATE CANVASSERS
Defendants/Respondents, and
CITY OF DETROIT, DEMOCRATIC NATIONAL
COMMITTEE and MICHIGAN DEMOCRATIC PARTY,
and ROBERT DAVIS,
Intervenor-Defendants/Respondents.

i

CASE NO. 20-816

IN THE SUPREME COURT OF THE UNITED STATES

CORECO JA’QAN PEARSON, VIKKI TOWNSEND CONSIGLIO,
GLORIA KAY GODWIN, JAMES KENNETH CARROLL, JASON M
SHEPHERD on behalf of the COBB COUNTY REPUBLICAN PARTY,
and BRIAN JAY VAN GUNDY
Applicants,
v.
STATE OF GEORGIA, BRIAN KEMP, in his official capacity as
Governor of Georgia, BRAD RAFFENSPERGER, in his official capacity
as Secretary of State and Chair of the Georgia State Election Board,
DAVID J. WORLEY, in his official capacity as a member of the Georgia
State Election Board, REBECCA N. SULLIVAN, in her official capacity
as a member of the Georgia State Election Board, MATTHEW
MASHBURN, in his official capacity as a member of the Georgia State
Election Board, and ANH LE, in her official capacity as a member of the
Georgia State Election Board,
Respondents.
MOTION TO CONSOLIDATE AND EXPEDITE CONSIDERATION OF THE
EMERGENCY PETITION FOR EXTRAORDINARY WRIT OF MANDAMUS
AND APPLICATION FOR PRELIMINARY INJUNCTION, TO EXPEDITE
MERITS BRIEFING AND ORAL ARGUMENT IN THE EVENT THAT THE
COURT GRANTS THE PETITION, AND TO EXPEDITE CONSIDERATION
OF THIS MOTION

ii

HOWARD KLEINHENDLER
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

SIDNEY POWELL*
*Counsel of Record
Texas Bar No. 16209700
Sidney Powell, P.C.
2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com

HARRY W. MACDOUGALD
Georgia Bar No. 463076
Caldwell, Propst & DeLoach, LLP
Two Ravinia Drive, Ste 1600
Atlanta, Georgia 30346
(404) 843-1956
hmacdougald@cpdlawyers.com

Of Counsel
JULIA Z. HALLER
BRANDON JOHNSON
EMILY P. NEWMAN

STEFANIE LAMBERT JUNTTILA
500 Griswold Street, Suite 2340
Detroit, MI 48226
(248) 270-6689
attorneystefanielambert@gmail.com

Date: December 18, 2020

iii

TABLE OF CONTENTS
Background .................................................................................................................... 2
Argument ....................................................................................................................... 7
Conclusion ...................................................................................................................... 8
T A B L E O F AUTHORITIES
Rules
Supreme Court Rule 21 .................................................................................................. 1
Constitutional Provisions
U.S. Const. Art II, § 1, cl. 2............................................................................................. 4

i

Pursuant to Supreme Court Rule 21, Petitioners respectfully move for
consolidation and expedited consideration of two related filings, submitted
December 11, 2020, that concern the November 3, 2020, presidential election.
These filings have direct implications for the outcome of the election nationwide.
The first of the filings concerns the presidential election conducted in the
State of Michigan and was assigned Docket Number 20-815 (the “Michigan
Petition”). The Michigan Petition seeks emergency declaratory relief avowing that
the presidential election results certified by Michigan officials were unconstitutional
and otherwise contrary to law, together with injunctive relief de-certifying those
results.
The second filing, Docket Number 20-816, parallels the first and concerns the
presidential election in Georgia (the “Georgia Petition”). The Georgia Petition seeks
declaratory and injunctive relief similar to that requested in the Michigan Petition.
Under the briefing schedules established by this Court’s rules, the Michigan
and Georgia Petitions would not be briefed until January 14, 2020 at the earliest;
and in the event the Court were to grant review, the cases would not be argued and
decided until Spring 2021 at the earliest. In the meantime, Petitioners claims will
have changed beyond recognition and will very likely have become moot. On
January 6, 2020, Congress is scheduled to meet in Joint Session to count electoral
votes from, and perhaps certify a winner of, the 2020 General Election—an election
irredeemably tainted by multi-state election fraud and malign foreign interference.

1

Petitioners respectfully request (1) that the Court consolidate the Michigan
and Georgia Petitions (together with similar petitions from Arizona and Wisconsin
discussed below); and (2) expedite consideration of all four petitions. The expedited
schedule proposed below would allow the Court to adjudicate the cases in advance of
January 6, 2020 Joint Session of Congress.
Petitioners further request expedited consideration of this motion.
BACKGROUND
The Georgia Petition requests, first and foremost, emergency declaratory
relief and an emergency injunction ordering the Georgia Respondents to de-certify
the results of the 2020 General Election. Alternatively, Petitioners request a writ of
mandamus to the Northern District of Georgia ordering that court (1) to vacate the
District Court’s December 7, 2020 final judgment in Docket No. 1:20-cv-4809-TCB
(“December 7 Order”) dismissing Petitioners’ November 25, 2020 complaint
(“Complaint”); and (2) to grant Petitioners’ November 27, 2020 Emergency Motion
for Declaratory, Emergency, and Permanent Injunctive Relief (“TRO Motion”) in
relevant part. The Michigan Petition requests parallel relief directed to the Eastern
District of Michigan.
On December 12, 2020, two more petitions arising from egregious fraud in
the presidential election were filed in this Court. One of the December 12 cases
involved the decision of the District of Arizona in Bowyer et al., v. Ducey, et al. (the
“Arizona Petition”), and the second involved the decision of the Eastern District of
Wisconsin in Feehan et al. v. Wisconsin Elections Commission, et al. (the “Wisconsin
Petition).
2

The Arizona and Wisconsin Petitions were electronically filed and hand
delivered to the Court on December 12. Nonetheless, on December 17, the Clerk’s
office marked both “Rejected” on the Court’s ECF database. When inquiry was
made about this notation, undersigned counsel was informed that a Clerk’s Office
analyst had disallowed them, for reasons unspecified, without participation by any
Justice of the Court. Counsel was informed that an explanation would be provided
via U.S. Mail.
We find this (presumably innocent) lapse atypical of the proud traditions in
the Office of the Supreme Court Clerk. More important, we are confident that
deficiencies in the Arizona and Wisconsin Petitions, if there be any, are curable. We
respectfully request that the Court deem those submissions filed nunc pro tunc and
consolidate them, once filed, with the Michigan and Georgia Petitions.
On December 14, 2020, pursuant to the requirements of applicable state laws
and the Electoral Count Act: (1) the Michigan Republican slate of Presidential
Electors attempted to meet inside the State Capitol and cast their votes for
President and Vice President but were denied entry by law enforcement, who also
refused their tender of their written votes. these Electors intended cast their votes
for President Donald J. Trump and Vice President Michael R. Pence;1 (2) the
Georgia Republican slate of Presidential Electors met at the State Capitol and cast

See https://thepalmierireport.com/michigan-state-police-block-gop-electors-from-entering-capitol/
last visited December 14, 2020, and Republican Electors locked out of Michigan capitol as GOP
House leader refuses to name opposing slate, by John Dougherty, BizPac Review, December 15, 2020
https://www.bizpacreview.com/2020/12/15/republican-electors-locked-out-of-michigan-capitol-as-gophouse-leader-refuses-to-name-opposing-slate-1005998/ last visited December 18, 2020.
1

3

their votes for President Donald J. Trump and Vice President Michael R. Pence;2 (3)
the Arizona Republican slate of Presidential Electors met at the State Capitol and
cast their votes for President Donald J. Trump and Vice President Michael R.
Pence;3 and (4) Wisconsin Republican slate of Presidential Electors met at the
State Capitol and cast their votes for President Donald J. Trump and Vice President
Michael R. Pence.4
As a result of the foregoing, there are now competing slates of electors from
the four states at issue in the four cases mentioned above, (as well from Nevada,
New Mexico, and Pennsylvania).
These four slates of electors have received the endorsement of the legislatures
in each of these States, as reflected in permission for them to cast (or attempt to
cast) their electoral votes, as an electoral body, for President Donald J. Trump in
the respective State Houses at the time and place as set forth under applicable
State law, the Electoral Count Act, and the authority delegated under the U.S.
Constitution’s Electors Clause. U.S. Const. Art II, § 1, cl. 2.
In the Michigan, Georgia, Arizona, and Wisconsin Petitions, and in the
underlying proceedings, Petitioners laid out extensive evidence of massive election
fraud and other illegal conduct. In each case, fact and expert witnesses presented
sworn and unrebutted testimony establishing that tens of thousands of illegal
See GOP Elector Nominees cast votes for Trump in Arizona, Georgia, Pennsylvania, by Dave Boyer,
The Washington Times, December 14, 2020
https://www.washingtontimes.com/news/2020/dec/14/gop-electors-cast-votes-trump-georgiapennsylvania/.
3 See Id.
4 See https://www.nbc15.com/2020/12/14/wisconsin-gop-electors-meet-to-cast-their-own-votes-too-justin-case/ last visited December 14, 2020.
2

4

ballots were counted in favor of candidate Biden. In each case, petitioners
established that correcting the multiple acts of illegality and fraud, as established
by sworn testimony, would erase candidate Biden’s purported margins of victory
and flip the relevant state to President Trump. But in each instance, the District
Courts failed to grapple with, or even to examine with care, these showings.
The nation was watching on Election Night when President Trump led by
hundreds of thousands of votes in five key swing states—Georgia, as well as
Arizona, Michigan, Pennsylvania, Wisconsin—until, nearly simultaneously, the
tabulation of votes shut down for several hours in Democrat-run cities in each of
those States. When counting resumed, candidate Biden had somehow made up the
difference and taken a narrow lead in Wisconsin and Michigan, while dramatically
closing the gap in other states. (Petitioners’ experts have shown that this
remarkable turnaround is a statistical impossibility.) Voters went to bed with
President Trump cruising to near-certain victory. Voters awoke to see candidate
Biden somehow having overcome what should have been an insurmountable lead.
Tens of millions have watched video showing how candidate Biden’s
improbable turnaround was achieved in Georgia. As the world now knows, election
observers were evacuated from the State Farm Center in Fulton County on a
pretext—false claims that counting was finished for the night —so that a few
workers might remain to resume counting unobserved. These workers extracted
pre-positioned cases of ballots from under counting tables, and ran them through
scanners, sometimes repeatedly, with nobody (except security cameras) watching.

5

On December 15, 2020, Petitioners in these related cases submitted
additional evidence via a “Notice of Supplemental Authority” (“Notice”). The Notice
sets forth results from a court-ordered forensic audit of Dominion Voting Systems
(“Dominion”) conducted in Michigan by Russell James Ramsland, Jr. of Allied
Security Operations Group, LLC (“ASOG”). Mr. Ramsland concludes that the
Dominion voting machines are “intentionally and purposefully designed with
inherent errors to create systemic fraud and influence election results,” Notice, Exh.
A, ¶ B(2), p.1. He further concludes that there is unmistakable evidence of
destruction of audit-trail records that the machines are required to retain. Id. ¶¶
B(15) and B(16).
Similar problems were found in an audit of Dominion machines by the Coffee
County, Georgia Board of Registration and Elections, which refused to certify
Dominion machine recount election returns.5 Several other Dominion audits are
underway, including an audit required by the Arizona Legislature for Maricopa
County, Arizona, and audits ordered by the Michigan Legislature. Dominion was
one of the principal means by which the 2020 presidential election was stolen by
domestic and foreign fraudsters, enabled by the reckless disregard of Respondents
in these cases.

See https://www.theepochtimes.com/georgia-county-says-it-couldnt-produce-duplicate-electionresults-secretary-of-states-officeinvestigating 3612884.html?utm source=news&utm medium=email&utm campaign=breaking2020-12-10-2, last visited December 18, 2020.
5

6

ARGUMENT
Expedited consideration of the Michigan and Georgia Petitions (as well as the
Arizona and Wisconsin Petitions) is warranted to permit this Court to provide
timely declaratory and injunctive relief.
Petitioners respectfully request that amici wishing to file briefs in support of
the Michigan and Georgia (and Arizona and Wisconsin) Petitions be directed to do
so by Monday, December 21, 2020, and that the respective Respondents be directed
to respond by Wednesday, December 23, 2020. Petitioners would file reply briefs by
Monday, December 28, 2020.
Petitioners hereby waive the 14-day waiting period, provided by Supreme
Court Rule 15.5, between the filing of a brief in opposition and distribution of the
Petition and other materials to the Court.
Finally, Petitioners move for expedited consideration of this motion.
Petitioners respectfully request that Respondents to the Michigan and Georgia
Petitions be directed to respond to this motion by ECF filing, no later than noon on
Saturday, December 19, 2020.
This Court deserves an opportunity to consider the mass of evidence of
absentee ballot fraud, electronic ballot fraud, and other fraud in the four states at
issue in the petitions. The Court should understand how it can be shown to a
practical certainty that these various frauds flipped the result of the 2020
presidential election from a win for President Trump to a purported win for
candidate Biden. The Court must recognize that fraudsters are closing in on their
lofty goal of corruptly attaining the presidency. Above all, the Court must bear in
7

mind the fraudsters’ simple expedient of going so big—carrying out so many brazen
frauds in so many far-flung jurisdictions—that the Court finds it difficult to get its
arms around the situation and afford a remedy.
CONCLUSION
For reasons stated, Petitioners respectfully request that the Court
consolidate and expedite consideration of the Michigan and Georgia Petitions (and
Arizona and Wisconsin Petitions).
Respectfully submitted,
/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
New York Bar No. 2657120
Howard Kleinhendler Esquire
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

SIDNEY POWELL
Counsel of Record
Texas Bar No. 16209700
Sidney Powell, P.C.
2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com

HARRY W. MACDOUGALD
Georgia Bar No. 463076
Caldwell, Propst & DeLoach, LLP
Two Ravinia Drive, Ste 1600
Atlanta, Georgia 30346
(404) 843-1956
hmacdougald@cpdlawyers.com

Of Counsel
JULIA Z. HALLER
BRANDON JOHNSON
EMILY P. NEWMAN

STEFANIE LAMBERT JUNTTILA
500 Griswold Street, Suite 2340
Detroit, MI 48226
(248) 270-6689
attorneystefanielambert@gmail.com

Date: December 18, 2020
8

CERTIFICATE OF COMPLIANCE
The attached Motion complies with the type-volume limitation. As required
by Supreme Court Rule 33.1(h), I certify that the document contains 1759 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Respectfully submitted,

/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
Attorney for Plaintiff/Petitioners
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
Date: December 18, 2020

9

